                                                 NA TIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 109020009                                                                    Page 1 of 1



        The OIG initiated an investigation based on an allegation that two NSF employees I improperly
        earned credit time for working prior to 7:00 am. We did not substantiate the allegation.
        Although both employees routinely logged into the Integrated Time & Attendance System
        (ITAS) prior to 7:00 am, they did not earn credit time for doing so.

         We also found that contrary to NSF policy, one employee,2 included time in the NSF Fitness
         Center as part of his eight-hour workday. On 10 occasions between February and April 2009, the
         employee improperly included time in the NSF Fitness Center as part of his regular eight-hour
         workday. On 8 of the 10 days at issue, the employee earned credit time, when in fact, he did not
         work the required eight-hours, since he spent time in the fitness center.

      / We were unable to ascertain the extent, if any, actual harm to NSF. We forwarded our findings
        to NSF management. 3 NSF reported that the employee received an oral reprimand. Since NSF
        management has taken action, this case is closed.




NSF 010 Form 2 (11/02)
